U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 6, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jim C. Hodge, et al. v. United States of America,
S.Ct. No. 19-1008

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 10,
2020, and placed on the docket on February 12, 2020. The government's response is due on
March 13, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 13, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-1008
HODGE, JIM C., ET AL.
USA

DAVID ALAN WARRINGTON
KUTAK ROCK LLP
1625 EYE STREET NW
SUITE 800
WASHINGTON, DC 20006
202-828-2437
DAVID .WARRINGTON@KUTAKROCK. COM

